                       National Archives and Records Administration
                                                                                            8601 Adelphi Road
                                                                           College Park, Maryland 20740-6001

Date       : June 20, 2006
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : Advisory Report No. 06-14, OIG Monitoring of the Novell Netware/GroupWise Upgrade Project

To:         Allen Weinstein, Archivist of the United States (N)

           The purpose of this advisory report is to advise you of the status of the Novell
           NetWare/GroupWise Upgrade Project. Based on efforts expended by NARA and contractor
           personnel to upgrade NARA’s computer network operating system and electronic mail software,
           it is our opinion that, as of June 13, 2006, the Novell NetWare/GroupWise Upgrade Project is
           progressing in a satisfactory manner. That is, the project is adhering to the established project
           schedule, and has encountered only minor technical issues with project performance.

           Since the project was restarted in March 2006, we have been monitoring government and
           contractor personnel efforts associated with upgrading the Novell Netware operating system and
           GroupWise electronic mail software for NARA’s computer network. Specifically, we are
           assessing whether (a) the project is meeting cost and schedule requirements, and (b) management
           is taking timely action to correct any actual or potential problems with project performance.
           Periodically during the upgrade process, we will provide you with reports of the project’s
           progress.

           Our monitoring effort consists mainly of attending progress/status meetings, reviewing applicable
           project documentation, including the Daily Summary Reports, Weekly Status Reports, Work
           Breakdown Structure, Implementation Schedule, and interviewing project management officials.
           We also reviewed the NetWare/GroupWise 2006 Product Plan; NetWare 6.5 Upgrade Project
           Plan, Information Technology Support Services (ITSS) contract modification no. 25, Software
           Upgrade, dated April 27, 2006; and the Technical Direction Letter no. FY05-TDL-04:
           Completion of the NetWare/GroupWise Upgrade Project, dated May 25, 2005. We also reviewed
           the following software upgrade project plans: System Security Plan, dated April 10, 2006; STE
           and Certification and Accreditation Plan, dated April 10, 2006; and the Disaster Recovery Plan:
           Programming Plan, dated April 10, 2006.

           To date, the Novell NetWare/GroupWise Upgrade Project is preceding on-schedule. In fact,
           migration effort at the NARA facilities is currently scheduled to be completed in less time than
           originally scheduled. According to ITSS contract modification no. 25, the effort was scheduled to
           begin on March 6, 2006, and be completed on October 31, 2006. Subsequently, the scheduled
           completion date was changed to October 27, 2006, a reduction of 4 days. (For additional details
           concerning the project schedule, see Attachment A.)


                                        NARA’s web site is http://www.nara.gov
As of June 13, 2006, the migration effort was completed at 10 (28.6 percent) of 35 locations,
including the (1)Washington National Records Center (Suitland) (NWMW), (2) Office of the
Federal Register (NF), (3) National Personnel Records Center – Civilian Personnel Records
(NPRC), (4) Harry S. Truman Library (NLHST), (5) Lee’s Summit Records Center (NREL), (6)
Kansas City (NREK), (7) Lenexa (NREX), (8) Waltham (NRAB), (9) Franklin D. Roosevelt
Library (NLFDR), and (10) Dayton (NRDD).

In addition, it is our opinion that the upgrade project has encountered no major problems with
performance or technical issues. As of June 13, 2006, there were three unresolved issues that
were being addressed by project personnel. (Technical issues encountered during performance
are identified in Attachment B.)

Our future project assessment efforts, in addition to monitoring project cost, schedule, and
technical performance, will include a review of the following areas: (a) test and evaluation, (b)
configuration management, and (c) certification and accreditation.

The Novell NetWare/GroupWise Upgrade Project was established because the agency’s computer
network operating system software and electronic message software does not ensure a secure
computing environment for NARANet users. Important software components of NARA’s
enterprise-wide computer network infrastructure are obsolete and no longer supported by vendors.
The objective of the upgrade project is to modernize NARA’s email, file, and print services
throughout the agency and to sustain NARA’s network operating system at peak levels by
upgrading the current version of NetWare to NetWare 6.5 and GroupWise email from version 6.0
to GroupWise 6.5.” The upgrades to NetWare and GroupWise should help increase the
availability and performance of NARA’s IT infrastructure and provide a more stable and
supportable environment for NARA’s user community.

If you have any questions concerning the information presented in this Advisory Report, or there
are other areas of the Novell software upgrade project that you would like for us to review, please
do not hesitate to contact me.


Paul Brachfeld
Inspector General


Cc: NH (M. Morphy)
    NHV (W. Day)




                             NARA’s web site is http://www.nara.gov
                 NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                            NETWARE MIGRATION
                              As of June 13, 2006


                                                  START                             COMPLETED
              TASK                 WBS                                FINISH DATE
                                                   DATE                              ON-TIME
        Netware Migration           1.6           3-15-06              10-12-06
1. Washington National
Records Center (Suitland)        1.6.4.2.2        4-25-06               5-01-06        Yes
(Pilot)
         Site Migrations           1.6.6          5-01-06              10-12-06
2. Archives I                     1.6.6.1          5-3-06               7-19-06
3. St. Louis – Civilian
                                  1.6.6.2         5-01-06               5-25-06        Yes
Personnel Records
4. Dwight D. Eisenhower                                                 7-20-06
                                  1.6.6.3          5-1-06
Library
5. Federal Register               1.6.6.4         5-01-06               5-19-06        Yes
6. Harry S. Truman Library        1.6.6.5         5-02-06               5-26-06        Yes
7. Kansas City                    1.6.6.6         5-01-06               5-30-06        Yes
8. Lee’s Summit                   1.6.6.7         5-01-06               6-02-06        Yes
9. Lenexa                         1.6.6.8         5-11-06               6-07-06        Yes
10. Pittsfield                    1.6.6.9         5-26-06               6-19-06
11. Franklin D. Roosevelt
                                 1.6.6.10         5-17-06               6-14-06        Yes
Library
12. Waltham                      1.6.6.11         5-19-06               6-12-06        Yes
13. Anchorage                    1.6.6.12         5-18-06               6-19-06
14. Dayton                       1.6.6.13         5-12-06               6-16-06        Yes
15. Chicago                      1.6.6.14         5-11-06               6-23-06
16. Morrow                       1.6.6.15         5-15-06               6-23-06
17. Fort Worth                   1.6.6.16         5-10-06               6-29-06
18. George H. Bush Library       1.6.6.17         5-11-06               6-22-06
19. William J. Clinton Library   1.6.6.18         5-12-06               7-24-06
20. Lyndon B. Johnson Library    1.6.6.19         5-15-06               6-28-06
21. Gerald Ford Library          1.6.6.20         5-10-06               6-29-06
22. Gerald Ford Museum           1.6.6.21         5-12-06               7-07-06
23. San Bruno                    1.6.6.22         5-25-06               7-10-06
24. Riverside                    1.6.6.23         5-24-06               7-12-06
25. Seattle                      1.6.6.24         5-18-06               7-27-06
26. Ronald W. Reagan Library     1.6.6.25         5-28-06               7-14-06

                             NARA’s web site is http://www.nara.gov
                NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                           NETWARE MIGRATION
                             As of June 13, 2006

                                                      START                             COMPLETED
             TASK                      WBS                                FINISH DATE
                                                       DATE                              ON-TIME
27. John F. Kennedy Library          1.6.6.26         5-22-06               7-28-06
28. Ellenwood                        1.6.6.27         5-10-06               8-02-06
29. Jimmy Carter Library             1.6.6.28         5-12-06               8-07-06
30. New York                         1.6.6.29         5-25-06               8-10-06
31. Philadelphia (Center City)       1.6.6.30         5-17-06               8-02-06
32. Philadelphia (Northeast)         1.6.6.31         5-25-06               7-27-06
33. Denver                           1.6.6.32         5-26-06               8-11-06
34. Archives II                      1.6.6.33          5-1-06              10-12-06
35. Sr. Louis – Military                                                    9-22-06
                                     1.6.6.34          8-8-06
Personnel Records
36. Herbert C. Hoover Library        1.6.6.35         5-10-06               8-07-06




                                 NARA’s web site is http://www.nara.gov
                                      NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                                                  TECHNICAL ISSUES




     DATE                                  ISSUE/ACTION ITEM                                    COMMENTS

  March 7, 2006    Power and connectivity-related issues.                                         Resolved.
  March 7, 2006    Mike Peckman’s delayed arrival.                                                Resolved
  March 8, 2006    Licenses for Standby Server Software.                                          Resolved
March 8, 2006      SCSI cards for the servers to support the tape backup units.                   Resolved
                   Test the SCSI card versus internal SCSI adapter to determine if there
 March 13, 2006                                                                                   Resolved
                   will be a performance issue during tape backups.
                   Information is needed from the Dwight D. Eisenhower Library to
 March 20, 2006                                                                                   Resolved
                   determine when the migration can occur.
                   Explanation needed of how the FOSA sites will be covered when they
 March 21, 2006                                                                                   Resolved
                   are pulled to support the site migrations.
                   Web services will not run on Netware, but nothing has been done to
 March 22, 2006                                                                                Work in progress
                   migrate the application to another platform. .
                   Determine if the Federal Register will get its own server, and if the
  April 17, 2006                                                                                  Resolved
                   server will be located there or Archives II.
                   After the build of the Gerald R. Ford Museum is completed, there will
  April 18, 2006                                                                                  Resolved
                   be 5 servers for 12 remaining sites.
                   Equipment may not be delivered to various field sites in time for site
  April 18, 2006                                                                               Work in Progress
                   deployment.
  April 18, 2006   Problem with remote administrator software (RAdmin).                           Resolved
  April 19, 2006   Servers missing.                                                               Resolved
  April 28, 2006   Server crashes after Caminosoft software installation at Archives II.          Resolved
  April 28, 2006   Problem with the Point of Sale (POS) System.                                   Resolved



                                                      NARA’s web site is http://www.nara.gov
                                 NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                                             TECHNICAL ISSUES


   DATE                               ISSUE/ACTION ITEM                                    COMMENTS

May 1, 2006    “Memory leakage” problem discovered on Suitland server.                       Resolved
               Air conditioning problem in the server room at the Military Personnel
May 7, 2006                                                                               Work in Progress
               Records Center (MPR)..
               “Memory leakage” problem at the Civilian Personnel Records Center
May 23, 2006                                                                                 Resolved
               (CPR).
May 24, 2006   “Memory leakage” problem at the Harry S. Truman Library.                      Resolved
May 25, 2006   Disk quotas causing some data to not be copied during server migration.       Resolved
May 31, 2006   Upgrading of Foundation machines at the Presidential libraries..              Resolved




                                                 NARA’s web site is http://www.nara.gov
